           Evaluation Report



The Social Security Administration’s
  Progress in Reducing the Initial
     Disability Claims Backlog




        A-07-13-13073 | April 2014
MEMORANDUM


Date:      April 28, 2014                                                     Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   The Social Security Administration’s Progress in Reducing the Initial Disability Claims Backlog
           (A-07-13-13073)

           The attached final report presents the results of our review. Our objective was to review the
           Social Security Administration’s actions to reduce its initial disability claims backlog.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
The Social Security Administration’s Progress in Reducing the
Initial Disability Claims Backlog
A-07-13-13073
April 2014                                                                   Office of Audit Report Summary

Objective                                   Our Findings

To review the Social Security               In Fiscal Year (FY) 2010, SSA expected initial disability claims
Administration’s (SSA) actions to           pending would exceed 1 million. Therefore, SSA established a goal
reduce its initial disability claims        to achieve a pending level of 525,000 initial disability claims by
backlog.                                    FY 2014. SSA took actions to reduce the initial disability claims
                                            backlog. As a result, SSA reduced the backlog from a high of about
Background                                  842,000 claims at the end of FY 2010 to 698,000 claims by the end
                                            of FY 2013.
In November 2010, SSA released its
Strategy to Address Increasing Initial      Based on SSA’s most recent projections for initial claims receipts
Disability Claims Receipts (Strategy).      and clearances, the pending level will not reach the levels
The Strategy outlined four objectives       previously expected. With the FY 2014 funding level and the
to address the increase in initial claims   funding level anticipated for FY 2015, SSA expects to make
and the growing pending levels. These       progress in reducing the initial claims backlog while keeping
objectives were to (1) increase staffing    average processing times consistent. If the anticipated funding and
at disability determination services        productivity remain unchanged, SSA and OIG’s collective
(DDS) and Federal disability                estimates indicate the pending level will remain lower than the
processing units, (2) improve               FY 2013 level through FY 2016. However, the pending level will
efficiency through automation,              not be reduced to 525,000 claims.
(3) expand the use of screening tools to
streamline claims likely to be allowed,     According to SSA, because of budget uncertainty, it was no longer
and (4) refine policies and business        striving to achieve its previous pending level goal of
processes to expedite cases.                525,000 claims, and it had not established a new goal for an ideal
                                            pending level. To reduce initial disability claims pending to an
                                            ideal level, it is important to have a goal. Further, the goal must be
                                            attainable within a timeframe allowed by SSA’s resources and take
                                            into consideration an acceptable processing time for initial claims
                                            and other workloads that need DDS resources.

                                            Our Recommendation

                                            We recommend that SSA establish a goal for an ideal initial
                                            disability claims pending level with an acceptable claims
                                            processing time and a timeframe to reach the goal.

                                            SSA agreed with our recommendation.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     SSA’s Actions to Reduce the Initial Claims Backlog................................................................2
           Objective 1: Increase Staff at the DDSs and in Federal Disability Processing Units .........2
           Objective 2: Improve Efficiency Through Automation ......................................................3
           Objective 3: Expand the Use of Screening Tools ...............................................................3
           Objective 4: Refine Policies and Business Processes to Expedite Case Processing...........4
           Other Actions SSA Had Taken to Reduce the Initial Claims Backlog ................................4
     SSA Obstacles in Reducing the Initial Claims Backlog ............................................................5
     Estimated Initial Disability Claims Pending Level ....................................................................5
Conclusions ......................................................................................................................................7
Recommendation .............................................................................................................................7
Agency Comments ...........................................................................................................................7
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Agency Comments .............................................................................................. B-1
Appendix C – Major Contributors.............................................................................................. C-1




SSA’s Progress in Reducing the Initial Disability Claims Backlog (A-07-13-13073)
ABBREVIATIONS
CAL                  Compassionate Allowance

CE                   Consultative Examination

C.F.R.               Code of Federal Regulations

DCPS                 Disability Case Processing System

DDS                  Disability Determination Services

DI                   Disability Insurance

eCAT                 Electronic Claims Analysis Tool

EST                  Extended Service Teams

FY                   Fiscal Year

HIT                  Health Information Technology

NVF                  National Vendor File

OIG                  Office of the Inspector General

QDD                  Quick Disability Determinations

SSA                  Social Security Administration

SSI                  Supplemental Security Income

Strategy             Strategy to Address Increasing Initial Disability Claims Receipts

U.S.C.               United States Code




SSA’s Progress in Reducing the Initial Disability Claims Backlog (A-07-13-13073)
OBJECTIVE
Our objective was to review the Social Security Administration’s (SSA) actions to reduce its
initial disability claims backlog.

BACKGROUND
SSA provides Disability Insurance (DI) benefits and Supplemental Security Income (SSI)
payments to eligible individuals under Titles II and XVI of the Social Security Act. 1 To receive
benefits under either program, an individual must first file an application with SSA. An SSA
field office then determines whether the applicant meets the non-disability criteria for benefits. 2
If the applicant meets the non-disability criteria, the field office generally forwards the claim to
the disability determination services (DDS) in the State or other office with jurisdiction to make
a disability determination. 3 There are DDSs in each of the 50 States, the District of Columbia,
and Puerto Rico. In addition to DDSs, SSA has Federal disability processing units that make
disability determinations.

According to SSA’s Strategy to Address Increasing Initial Disability Claims Receipts (Strategy),
it experienced a significant increase in initial disability claim applications in Fiscal Year (FY)
2008 due to the economy, a rise in unemployment, and the aging of the baby boomers. The rate
of applications continued increasing through FY 2010—with an overall increase of about
24 percent since FY 2008. To address the initial claims increase and growing level of pending
claims, in November 2010, SSA released its Strategy, which outlined the following four
objectives.

1. Increase staff in the DDSs and in Federal disability processing units, particularly disability
   examiners and medical consultants.

2. Improve efficiency through automation.

3. Expand the use of screening tools to assist in identifying claims likely to be allowed.

4. Refine policies and business processes to expedite case processing.




1
    Social Security Act §§ 201 et seq. and 1601 et seq., 42 U.S.C. §§ 401 et seq. and 1381 et seq.
2
 For DI benefits, non-disability criteria include sufficient earnings to acquire insured status. 42 U.S.C. § 423(c)(1).
For SSI payments, the non-disability criteria include income and resources. 42 U.S.C. § 1382.
3
 At the DDS, a disability examiner uses SSA’s regulations, policies, and procedures to obtain the relevant medical
evidence. The examiner then evaluates the case to determine whether the claimant is disabled under the Agency’s
criteria. As needed, the disability examiner will consult with a physician and/or psychologist. Social Security Act
§§ 221(a)(1) and 1633(a), 42 U.S.C. §§ 421(a)(1) and 1383b(a), 20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.



SSA’s Progress in Reducing the Initial Disability Claims Backlog (A-07-13-13073)                                      1
RESULTS OF REVIEW
In FY 2010, SSA expected initial disability claims pending would exceed 1 million. Therefore,
SSA established a goal to achieve a pending level of 525,000 initial disability claims by
FY 2014. SSA took actions to reduce the initial disability claims backlog. As a result, SSA
reduced the backlog from a high of about 842,000 claims at the end of FY 2010 to
698,000 claims by the end of FY 2013.

Based on SSA’s most recent projections for initial claims receipts and clearances, the pending
level will not reach the levels previously expected. With the FY 2014 funding level and the
funding level anticipated for FY 2015, SSA expects to make progress in reducing the initial
claims backlog while keeping average processing times consistent. If the anticipated funding
and productivity remain unchanged, SSA and OIG’s collective estimates indicate the pending
level will remain lower than the FY 2013 level through FY 2016. However, the pending level
will not be reduced to 525,000 claims.

According to SSA, because of budget uncertainty, it was no longer striving to achieve its
previous pending level goal of 525,000 claims, and it had not established a new goal for an ideal
pending level. To reduce initial disability claims pending to an ideal level, it is important to have
a goal. Further, the goal must be attainable within a timeframe allowed by SSA’s resources and
take into consideration an acceptable processing time for initial claims and other workloads that
need DDS resources.

SSA’s Actions to Reduce the Initial Claims Backlog
In its Strategy, SSA laid out four objectives to address the increases in initial disability claims
receipts and pending levels.

Objective 1: Increase Staff at the DDSs and in Federal Disability Processing
Units
From FYs 2008 to 2010, the number of DDS employees increased by almost 3,000, with the
majority—about 2,000— being disability examiners. 4 This included 333 new employees to staff
the newly established Extended Service Teams (EST) in Arkansas, Mississippi, Virginia, and
Oklahoma. SSA established ESTs to assist the DDSs hardest hit with claim receipts and high
pending levels. SSA placed ESTs in these four States because they had a history of high quality
and productivity. In addition, these States had the capacity to hire and train additional staff to
help process claims. Also, by the end of FY 2010, SSA had over 400 additional disability
examiners at its Federal disability processing units compared to the end of FY 2008.




4
 Of the remaining 1,000 employees, more than 300 were medical consultants. The remaining 700 employees were
DDS administrative and support staff.



SSA’s Progress in Reducing the Initial Disability Claims Backlog (A-07-13-13073)                              2
Objective 2: Improve Efficiency Through Automation
SSA implemented several automated efficiency initiatives over the past few years to mitigate
some of the effects of dwindling resources on the initial disability claims pending level.

   SSA rolled out the Electronic Claims Analysis Tool (eCAT) in all DDSs. This tool is a
    Web-based application designed to assist DDS staff with documenting, analyzing, and
    adjudicating the disability claim in accordance with SSA regulations. 5

   SSA increased the use of consultative examination (CE) video teleconferencing. A CE is a
    physical or mental examination or test purchased from a medical source, at SSA’s request
    and expense, to provide evidence for a claimant’s disability or blindness claim. 6 Video
    teleconferencing is an innovative and cost-effective way of providing Social Security
    services to the public.

   SSA expanded the use of Health Information Technology (HIT), the electronic management
    and secure exchange of medical information between health care consumers and medical
    providers. 7

Objective 3: Expand the Use of Screening Tools
SSA expanded its screening tools through Quick Disability Determinations (QDD) and
Compassionate Allowances (CAL) to expedite favorable rulings to more severely disabled
claimants. These screening tools use technology to identify claimants with the most severe
disabilities and allow SSA to expedite decisions while maintaining accuracy. In FY 2014, SSA
expects to identify 6.1 percent of all initial disability cases as QDD or CAL, up from 4.6 percent
in FY 2010.




5
 In a prior audit, we assessed the eCAT application as it was rolled out nationally to sites that made initial disability
determinations. We found eCAT was a useful tool in documenting analysis of initial disability claims. SSA OIG,
The Social Security Administration’s Electronic Claims Analysis Tool (A-01-10-11010), January 5, 2011, p. 3.
6
  SSA, POMS, DI 22510.001 A.1 (April 8, 2013). In FY 2013, 1,460 CEs had been performed through video
teleconferencing, compared to 1,201 in FY 2012 and 894 in FY 2011.
7
 In a prior audit, we reviewed SSA’s plans for the funds earmarked for HIT. We found SSA had been proactive in
planning for HIT initiatives, including setting a timeline for awarding contracts for HIT spending and planned
oversight of those contracts. SSA OIG, Funding for Health Information Technology Under the American Recovery
and Reinvestment Act of 2009 (A-01-09-29155), July 31, 2009, p. 3. In a separate report, we reviewed four of the
contracts awarded for HIT. We found SSA properly accounted for the funds, and the contractors completed their
objectives, in three of the four contracts. SSA terminated the remaining contract. SSA OIG, American Recovery
and Reinvestment Act of 2009 Funds Used for Health Information Technology Contracts (A-15-11-11199),
July 19, 2012, p. 2.



SSA’s Progress in Reducing the Initial Disability Claims Backlog (A-07-13-13073)                                        3
Objective 4: Refine Policies and Business Processes to Expedite Case
Processing
To allow disability examiners to process cases more efficiently, SSA revised its policy to judge
individuals based on their ability to work. 8 SSA also formed the Training Advisory Committee
to discuss future training topics and needs, provide input on newly effectuated policies and
procedures, and share training materials and ideas. Through the Training Advisory Committee,
SSA created a central repository for locally created training materials to share with other trainers.

Other Actions SSA Had Taken to Reduce the Initial Claims Backlog
SSA is implementing the Disability Case Processing System (DCPS), which can be used by all
State and Federal disability processing units. Creating the new and universal DCPS will provide
common functionality and consistent support for the business processes of all components that
make disability determinations. SSA is implementing DCPS in the first five sites and originally
planned to have it fully implemented by the end of FY 2016. 9 However, based on additional
time requirements identified at the first implementation sites, SSA is revising its timeline. 10

SSA is also developing a National Vendor File (NVF) to help reduce the initial disability claims
backlog. As of the date of our review, each DDS was maintaining its own data file of vendors
that provided medical records and CEs. When a physician changes their contact information,
each DDS must update its vendor file. The NVF will eliminate the duplication caused when
each DDS adds or removes vendor names and other information. The NVF combines vendor
information from each State and Federal determination component in a single database that will
be accessible to all components. The creation of the NVF will also make it easier to shift work
between DDSs, ESTs, or Federal determination components. The NVF rollout will be
implemented concurrently with the DCPS rollout. NVF needs to be in place for DCPS to be
fully functional.




8
    SSA, POMS, DI 25005.015 A (September 19, 2011).
9
    The first five sites are Idaho, Illinois, Missouri, Nebraska, and New York.
10
     SSA expects to have the timeline revised by the end of April 2014.



SSA’s Progress in Reducing the Initial Disability Claims Backlog (A-07-13-13073)                    4
SSA Obstacles in Reducing the Initial Claims Backlog
According to SSA, the two main obstacles it faced in reducing initial claims pending to an ideal
level were increased initial claims receipts and reduced staffing at the DDSs. In FY 2013, SSA
received approximately 3 million initial disability claims, for the fifth consecutive year, peaking
at more than 3.3 million claims in FY 2011. In FYs 2009 and 2010, SSA received funding to
increase DDS staffing (see Table 1). The increase in DDS staffing allowed SSA to implement
actions to make progress in reducing the initial disability claims backlog. As a result, initial
disability claims pending decreased for 3 consecutive years, from a high of 842,000 in FY 2010
to 698,000 in FY 2013.

        Table 1: DDS Staffing and Initial Disability Claims, FYs 2008 Through 2013 11
                   FY 2008          FY 2009         FY 2010          FY 2011         FY 2012         FY 2013
DDS Staff            15,361          16,814           18,268          17,064           16,075         15,285
Initial Claims
                   2,605,362       3,024,415        3,224,668       3,318,228        3,158,421       2,985,877
Receipts
Initial Claims
                   2,630,312       2,812,915        3,161,314       3,390,936        3,206,869       2,987,628
Clearances
Initial Claims
                    565,284         779,854          842,192         759,023          707,700         698,127
Pending

According to SSA, reduced funding since FY 2010 prevented it from replacing staff losses at
DDSs. As a result, DDS staffing in FY 2013 was about the same as it was in FY 2008 (see
Table 1). However, in FY 2013, initial claims receipts were almost 15 percent higher than they
were in FY 2008.

Estimated Initial Disability Claims Pending Level
With the FY 2014 funding level and the funding level anticipated for FY 2015, SSA expects to
make progress in reducing the initial claims backlog while keeping average processing times
consistent. If the anticipated funding and productivity remain unchanged, SSA and OIG’s
collective estimates indicate the pending level will remain lower than the FY 2013 level through
FY 2016 (see Table 2).




11
  DDS staff as of the end of FYs 2008 through 2013, as provided by SSA’s Offices of Operations and Budget,
Finance, Quality, and Management. Initial claims receipts, clearances, and pending obtained from SSA’s Office of
Disability Determinations management information reports.



SSA’s Progress in Reducing the Initial Disability Claims Backlog (A-07-13-13073)                                   5
               Table 2: Initial Disability Claims Pending and Processing Times for
                                     FYs 2013 Through 2016
                                                                                                     FY 2016
                                           FY 2013          FY 2014              FY 2015
              Category                                                                                 (OIG
                                           (Actual)      (SSA Estimate)       (SSA Estimate)
                                                                                                     Estimate)
Open Pending Level 12                       707,700          698,127              642,127             655,127
Initial Receipts 13                        2,985,877        2,891,000            2,860,000           2,860,000
Initial Clearances 14                      2,987,628        2,947,000            2,847,000           2,847,000
Ending Pending Level 15                     698,127          642,127              655,127             668,127
Processing Time (Days) 16                     107              109                  107                 107

 In FY 2010, SSA expected initial disability claims pending would exceed 1 million. Therefore,
 SSA established a goal to achieve a pending level of 525,000 initial disability claims by
 FY 2014. This goal was based on processing each claim in 70 days. Despite progress in
 reducing the backlog, SSA does not expect to achieve a pending level of 525,000 by the end of
 FY 2014. According to SSA, it was no longer striving to achieve this pending level because of
 budget uncertainty, and it had not established a new goal for an ideal pending level. Since SSA
 had not established a new goal for an ideal pending level, it had not established an ideal
 processing time or a timeframe for reducing the initial claims pending level. To reduce initial
 disability claims pending to a specific level, it is important to have a goal with objectives that can
 be achieved in a fixed timeframe. Therefore, we recommend that SSA establish a goal for an
 ideal initial disability claims pending level with an acceptable claims processing time and a
 timeframe to reach the goal.




 12
   The open pending levels in FYs 2013 and 2014 are the FY 2012 and 2013 year-end pending levels, respectively,
 as reported on SSA’s Office of Disability Determinations’ Initial Workload Trend report. The FY 2015 and 2016
 open pending levels equal the closing pending levels of the prior FYs.
 13
  We obtained FY 2013 initial receipts and clearances from SSA’s Office of Disability Determinations’ Initial
 Workload Trend report. We obtained the FY 2014 and 2015 projected receipts and clearances from the President’s
 FY 2015 Budget Request. We assumed the FY 2015 projections will be consistent in FY 2016.
 14
      .Id.
 15
   We obtained the FY 2013 ending pending level from SSA’s Office of Disability Determinations’ Initial Workload
 Trend report. We calculated the estimated ending pending levels for FYs 2014 through 2016 by adding receipts to
 opening pending then subtracting clearances.
 16
  We obtained the FY 2013 processing time and the FY 2014 and 2015 projected processing times from the
 FY 2015 Budget Request. We assumed the FY 2015 projection would be consistent in FY 2016.



 SSA’s Progress in Reducing the Initial Disability Claims Backlog (A-07-13-13073)                                 6
CONCLUSIONS
In FY 2010, SSA expected initial disability claims pending would exceed 1 million. Therefore,
SSA established a goal to achieve a pending level of 525,000 initial disability claims by
FY 2014. SSA took actions to reduce the initial disability claims backlog. As a result, SSA
reduced the backlog from a high of about 842,000 claims at the end of FY 2010 to
698,000 claims by the end of FY 2013.

Based on SSA’s most recent projections for initial claims receipts and clearances, the pending
level will not reach the levels previously expected. With the FY 2014 funding level and the
funding level anticipated for FY 2015, SSA expects to make progress in reducing the initial
claims backlog while keeping average processing times consistent. If the anticipated funding
and productivity remain unchanged, SSA and OIG’s collective estimates indicate the pending
level will remain lower than the FY 2013 level through FY 2016. However, the pending level
will not be reduced to 525,000 claims.

According to SSA, because of budget uncertainty, it was no longer striving to achieve its
previous pending level goal of 525,000 claims and it had not established a new goal for an ideal
pending level. To reduce initial disability claims pending to an ideal level, it is important to have
a goal with objectives to achieve in a fixed timeframe. Further, the goal must be attainable
within a timeframe allowed by SSA’s resources and take into consideration an acceptable
processing time for initial claims and other workloads that need DDS resources, such as
continuing disability reviews.

RECOMMENDATION
We recommend that SSA establish a goal for an ideal initial disability claims pending level with
an acceptable claims processing time and a timeframe to reach the goal.

AGENCY COMMENTS
SSA agreed with our recommendation. The Agency’s comments are included in Appendix B.




SSA’s Progress in Reducing the Initial Disability Claims Backlog (A-07-13-13073)                   7
                                        APPENDICES




SSA’s Progress in Reducing the Initial Disability Claims Backlog (A-07-13-13073)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objective, we:

   Reviewed applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, policies, and procedures.

   Researched prior reports by the Office of the Inspector General and the Government
    Accountability Office.

   Reviewed SSA’s November 2010 Strategy to Address Increasing Initial Disability Claims
    Receipts.

   Interviewed SSA officials from the Offices of Operations and Budget, Finance, Quality, and
    Management.

   Gathered and reviewed data related to the projected disability workloads in Fiscal Years (FY)
    2014 through 2016.

   Analyzed SSA’s projections to estimate the initial disability pending levels for FYs 2014
    through 2016.

We conducted our review between April and November 2013 in Kansas City, Missouri. The
entity reviewed was the Office of Disability Determinations under the Office of Operations. We
determined the data used in this report were sufficiently reliable given our review objective and
intended use of the data. We conducted our review in accordance with the Council of the
Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection and
Evaluation.




SSA’s Progress in Reducing the Initial Disability Claims Backlog (A-07-13-13073)                A-1
           Appendix B – AGENCY COMMENTS




                                             SOCIAL SECURITY

MEMORANDUM


Date:      April 18, 2014                                                                     Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   OIG Draft Report, "The Social Security Administration’s Progress in Reducing the Initial
           Disability Claims Backlog" (A-07-13-13073) -- INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to Gary S.
           Hatcher at (410) 965-0680.

           Attachment




           SSA’s Progress in Reducing the Initial Disability Claims Backlog (A-07-13-13073)                       B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
"THE SOCIAL SECURITY ADMINISTRATION’S PROGRESS IN REDUCING THE
INITIAL DISABILITY CLAIMS BACKLOG" (A-07-13-13073)

Recommendation 1

Establish a goal for an ideal initial disability claims pending level with an acceptable claims
processing time and a timeframe to reach the goal.

Response

We agree. We will continue to establish annual initial claims goals in proportion to our allocated
resources.

In our Annual Performance Report, we establish annual goals for initial disability claims pending
with an acceptable claims processing time. For fiscal year (FY) 2014, our target number of
initial disability claims pending is 642,000. Our FY 2014 target for average processing time for
initial disability claims is 109 days.

The disability determination services pending and processing time goals are budgeted
performance measures because they are dependent upon the annual appropriation received and
the resources the appropriation will provide.




SSA’s Progress in Reducing the Initial Disability Claims Backlog (A-07-13-13073)                  B-2
Appendix C – MAJOR CONTRIBUTORS
Mark Bailey, Director, Kansas City Audit Division

Tonya Eickman, Audit Manager

Nick Moore, Auditor




SSA’s Progress in Reducing the Initial Disability Claims Backlog (A-07-13-13073)   C-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                    CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website
at http://oig.ssa.gov/audits-and-investigations/audit-reports/all. For notification of newly
released reports, sign up for e-updates at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
